                                                                 UNITED STATES DEPARTMENT OF COMMERCE
                                                                 Office of Inspector General
                                                                 Washington. D.C. 20230




SEPTEMBER 10,2010

MEMORANDUM FOR:                   Helen Hurcombe
                                  Senior Procurement Executive and Director,
                                  Office of Acquisition Management




FROM:                             Ann C. Eilers
                                  Principal Assistant Inspector General for Audit and Evaluation

SUBJECT:                          Review of Recovery Act Contracts and Grants Workforce Staffing
                                  and Qualifications at the Department of Commerce
                                  Final Report ARR-19900


This memorandum reports the recommendations applicable to
                                                                         (
                                                                               Commerce Recommendations
                                                                                                                        '\
the Department of Commerce from the govemment-wide
Review ofContracts and Grants Workforce Staffing and                           We recommend that Commerce
Qualifications in Agencies Overseeing RecovelY Act Funds,                      bureaus closely monitor the staffing
issued by the Recovery Accountability and Transparency                         of both Recovery Act and non-
                                                                               Recovery Act work and make
Board in March 20 I O. 1                                                       adjustments as necessary to
                                                                               ensure that all contracts and grants
                                                                               are properly awarded and
Introduction                                                                   monitored. Additionally, we
                                                                               recommend that the Department
The American Recovery and Reinvestment Act of2009                              take steps to ensure that all
(ARRA) directed the Recovery Accountability and                                contracting officers are in
Transparency Board to review (I) "whether there are                            compliance with relevant
sufficient qualified acquisition and grant personnel overseeing                certification requirements. Finally,
covered funds" and (2) "whether personnel whose duties                         the Department should determine if
                                                                               program managers working on
involve acquisition or grants made with covered funds receive                  major acquisitions are certified and
adequate training.,,2                                                          close any certification gap that may
                                                                               exist.
At the request of, and in consultation with, the Board, the
Department of Commerce Office of Inspector General (OIG)                       We further recommend that the
prepared the board report, which comprised, in part, the                       Department of Commerce establish
                                                                               its own requirements for the
results of a survey distributed to the 29 offices of inspector                 training of grants personnel in all of
general responsible for oversight of the Recovery Act. The                     its bureaus.
report provided an overview of the staffing, qualifications,
and training of the acquisitions and grants workforces
awarding and administering ARRA funds. The report also

IReview o/Contracts and Grants Workforce Staffing ami Qualifications in Agencies Overseeing ReCOVel)1 Act Funds,
 compiled and presented by the Office of Inspector General, Department of Commerce; Recovery Accountability and
 Transparency Board, March 2010.
'Pub. L. No. 111-5, § 1523(a)(2)(0) & (E), 123 Stat. 290.
                                                                                                                              


provided specific recommendations addressing the need to closely monitor both Recovery Act and
non-Recovery Act work, the assessment of training and certification of contracting personnel, and
the establishment of training requirements for grants personnel absent government- wide standards.
The board report divides the contracts and grants workforce into seven job classifications:
contracting officer (CO), contracting officer’s technical representatives (COTR), contract program
manager (CPM), contracting support personnel (CSP), and grants officer (GO), grants program
manager (GPM), and grants specialist (GS). 3

The Department of Commerce’s Contracts and Grants Workforce
This report highlights and summarizes the Department of Commerce’s responses to the survey. It
extracts Department data collected for the board report and presents it by bureau and job
classification. The six Department bureaus included in the survey were: Office of the Secretary
(OS), Census Bureau, Economic Development Administration (EDA) National Institute of
Standards and Technology (NIST), National Oceanic and Atmospheric Administration (NOAA),
and the National Telecommunications and Information Administration (NTIA).
The board report used three consecutive reporting periods in its analysis of the contracts and grants
workforce. At the time the survey was distributed, the second and third periods were projections. At
June 30, 2010, contracts and grants personnel in the reporting bureaus were projected to total
2,163—a 13-percent increase over the previous year. Of those, 382 (18 percent) were to be assigned
Recovery Act work. NTIA, in particular, saw a significant increase in its workforce, reflecting
increased attention to the Broadband Technologies Opportunity Program (BTOP). Figures 1 and 2
show the workforce assigned to the Recovery Act by job classification and bureau, respectively.
Reporting by some agencies appears to suggest that all or most of their contracts and grants
employees are working on the Recovery Act, while others report that only certain employees do.

    Figure 1. Employees, by Position, Assigned to Recovery Act Contracts
           and Grants, Actual and Projected, April 2009–June 2010


        200
        175
        150
        125
        100
         75
         50
         25
          0
                           CO                   COTR                CPM           CSP        GO         GPM           GSP
                         4/1/09‐6/30/09                        7/1/09‐12/31/09 (Projected)   1/1/10‐6/30/10 (Projected)

Source: Board report.
                                                            
3
    See Attachment I—Objectives, Scope, and Methodology—for definitions. 


                                                                                  2 
                                                                                                                                      


     Figure 2. Employees, by Bureau, Assigned to Recovery Act Contracts
            and Grants, Actual and Projected, April 2009–June 2010

      200
      175
      150
      125
      100
       75
       50
       25
         0
                           OS                           EDA            Census            NOAA             NIST               NTIA

                               4/1/09‐6/30/09                  7/1/09‐12/31/09 (Projected)      1/1/10‐6/30/10 (Projected)


       Source: Board report.


Commerce Workforce is Generally Sufficient but Impacts Noted on Non-Recovery-
Act Workload
Commerce respondents generally reported staff sufficient to meet the workload imposed by the
Recovery Act. In associated comments elicited by the survey, the bureaus reported 11 of the 23
contracts and grants job classifications to be largely unaffected by any additional Recovery Act
workload. In these instances, some respondents noted that they either already had enough qualified
staff to handle the extra burden or would hire additional staff. Eight of the job classifications
reported impacts from the Recovery Act, but only to the extent that non-Recovery Act work would
be affected. Respondents noted that staff would be taken away from regular duties, sometimes
leading to delays. The reporting of insufficient staff across the board was limited to four job
classifications in two bureaus. These respondents noted neglect of non-Recovery-Act workload,
delay, and the possibility of compromised work quality.

Almost All Commerce Contracting Personnel Working on Recovery Act Have Met
their Certification and Training Requirements
At the Department of Commerce, almost all contracting personnel have met the certifications and
continuous learning requirements associated with the Office of Federal Procurement Policy’s
(OFPP) 4 certifications applicable to their jobs. Three bureaus have established additional
qualifications requirements for contracting personnel that go beyond the OFPP certification, a
positive development. Census, NIST, and NOAA have additional qualifications for COTRs; NOAA

                                                            
4
    OFPP, within the Office of Management and Budget, was established by Congress in 1974 to provide overall direction
    for government-wide procurement policies, regulations, and procedures, and to promote economy, efficiency, and
    effectiveness in acquisition processes. The board report summarizes OFPP requirements.


                                                                                3 
                                                                                                                             


has additional qualifications for contract program managers, and Census has them for contract
support personnel. Census and NOAA reported that they have a total of seven contract program
managers who manage “major acquisitions”—that is, acquisitions that exceed $75 million over a
project’s life cycle. 5 The board report data do not allow us to determine if these contract program
managers are current on their certifications.
In addition, the Department has established a three-level contracting officer representative
certification program. The program is designed to facilitate the development of the necessary
competencies needed for individuals to progress to the management of contracts with higher
complexity and higher contract management risk.
Unlike the acquisition workforce, which has specific certification and continuous learning
requirements, there is no government-wide standard for the grants workforce. Without a common
standard, a comparative analysis across the five Commerce bureaus was not possible.

Recommendations
We recommend that Commerce bureaus closely monitor the staffing of both Recovery Act and
non-Recovery-Act work and make adjustments as necessary to ensure that all contracts and grants
are properly awarded and monitored. Additionally, we recommend that the Department take steps
to ensure that all contracting officers are in compliance with relevant certification requirements.
Finally, the Department should determine if program managers working on major acquisitions are
certified and close any certification gap that may exist.
We further recommend that the Department of Commerce establish its own requirements for the
training of grants personnel in all of its bureaus.
Please advise us by October 10, 2010, of the actions you propose to take on our recommendations.
If you have any questions, please call me at 202.482.2754 or Kathleen McKevitt, Project Lead,
Recovery Act Task Force, at 202.527.3651


cc:           Michael L. Palensky, Chief, Acquisition Division, Census
              Darice Arhsbrak, Chief, Information Officer, EDA
              Cecilia Royster, Deputy, Division Chief, NIST
              Mitch Ross, Director, Acquisition and Grants Office, NOAA
              Darryl Anderson, Director, Commerce Acquisition Solutions, OS
              Wayne Ritchie, OTIA Chief Administrative Officer, NTIA




                                                            
5
    OMB Circular A-11, Part 7, Section 300, designates certain investments as “major,” including those “defined as major
    by the agency’s capital planning and investment control process.” The Department of Commerce has defined
    acquisitions that exceed $75 million as major investments (Department of Commerce Acquisition Manual, § 1307.1).


                                                               4 
Attachment 1

                                     OBJECTIVES, SCOPE, AND METHODOLOGY
The Recovery Act charged the Recovery Accountability and Transparency Board with reviewing
the sufficiency, qualifications, and training of contracts and grants staff overseeing Recovery Act
funds. In May 2009, the board asked the Department of Commerce OIG to develop a survey to
obtain a snapshot of the Recovery Act acquisitions and grants workforce during the initial
implementation of the Act. The survey document created was divided into seven discrete sections,
each correlating to a specific segment of the acquisitions and grants workforce. The board report
used the Office of Federal Procurement Policy’s definitions of the positions that constitute the
contracting workforce:

•      Contracting officers are government employees authorized to enter into, modify, or terminate
       contracts on behalf of the federal government. Their responsibilities include acquisition
       planning, managing the evaluation of offers, and ensuring performance of the contract.
•      Contracting officer’s technical representatives are authorized to perform administrative and/or
       technical functions associated with contract performance by virtue of a delegation of authority
       from the contracting officer.

•      Contract program managers manage programs that a particular project is supporting.

•      Contracting support personnel includes all other government employees whose primary
       responsibilities involve government contracting, from contracting specialists without warrants to
       agency policy and procurement executives and their staffs.
Unlike the contracts workforce, no standardized structure exists for the grants workforce. As a
result, the grants workforce is structured differently from agency to agency across the federal
government. The board report provided comprehensive definitions in order to capture the
authorizing management, policy, oversight, and support personnel who award and administer
grants.

•      Grants officers are government employees with authority to approve awards and amendments
       that obligate or deobligate funds and to oversee the business management and administrative
       aspects of grants or cooperative agreements.

•      Grants program managers manage the programmatic aspects of grants or cooperative
       agreements, including tracking the recipient’s progress and comparing actual accomplishments
       with goals and objectives established in the award.

•      Grants specialists support the grants officer in the business management of grants and
       cooperative agreements, including oversight personnel who create policy and guidance.
The results of that survey and accompanying review and recommendations were published by the
Board in March 2010. The completed Department of Commerce surveys were the basis for this
report. We relied upon the board report, whose methodology included quality checks, minor edits of
data, and correction of material inconsistencies through consultation with survey respondents. 6 In
addition, in the preparation of this report, we asked one Department bureau to submit an additional
                                                            
6
    See board report, Appendix B: Objectives, Scope, and Methodology, p. 33. 
                                                                                                         


survey. We did not validate the data, although we met with Department officials to verify selected
data points and to ensure the reasonableness of the reported data.
The board report was in response to a statutory requirement in the American Recovery and
Reinvestment Act of 2009 that directed the board to review the sufficiency and qualifications of the
acquisition and grants personnel working on the Recovery Act. This work does not constitute an
audit under generally accepted government auditing standards.




                                                 6 
Attachment 2

        DEPARTMENT OF COMMERCE RECOVERY ACT FUNDING
(in thousands)
  Economic                        $ 150,000 Grants to economically distressed areas support
  Development                               efforts to create higher‐skill, higher‐wage jobs by
  Administration (EDA)                      promoting innovation and entrepreneurship and
                                            connecting regional economies with the worldwide
 $150,000                                   marketplace
 Census Bureau                     1,000,000 Hire new personnel for partnership and outreach
                                             efforts to minority communities and hard‐to‐reach
 $1,000,000                                  populations, increase targeted media purchases, and
                                             ensure proper management of other operational and
                                             programmatic risks
 National Oceanic and                230,000 Habitat restoration, navigation projects, vessel
 Atmospheric                                 maintenance
 Administration (NOAA)               430,000 Construction and repair of NOAA facilities, ships,
                                             and equipment; improvements for weather
 $830,000                                    forecasting and satellite development
                                     170,000 Climate computing and modeling
 National Institute of               220,000 Laboratory research supporting economic growth
 Standards and                               and innovation through competitive grants, research
 Technology (NIST)                           fellowships, and advance measurement equipment
                                     360,000 Maintenance and renovation backlog
 $610,000                             30,000 Funds from the Department of Health and Human
                                             Services for standards-related research on medical
                                             records; from the Department of Energy to develop
                                             framework for an interoperable smart grid for U.S.
                                             electric power system
 National                          3,890,000 Broadband Technology Opportunities Program—
 Telecommunications                          awards to eligible entities to develop and expand
 and Information                             broadband services to rural and underserved areas
 Administration (NTIA)                       and improve access to broadband by public safety
                                             agencies
 $4,690,000 Broadband
                                     350,000     Broadband inventory mapping
 $650,000 Converter                  250,000     Sustainable adoption of broadband services
 box                                 200,000     Upgrade public computer centers
                                     650,000     TV converter box coupons
 Office of Inspector
 General $16,000                      16,000 Oversight
                    Total          7,946,000

Source: American Recovery and Reinvestment Act of 2009, Department of Commerce, Program Plan Updates, May 2010
